           Office of Inspector General




July 7, 2004

THOMAS F. ROSATI
MANAGER, LONG ISLAND DISTRICT

VINNIE MALLOY
MANAGER, NEW YORK DISTRICT

SUBJECT: 	 Audit Report – Efforts to Prevent Accidents, Injuries, and Illnesses
           in the Long Island and New York Performance Clusters
           (New York Metro Area) (Report Number HM-AR-04-008)

This report presents the results of our self-initiated audit of the Long Island and
New York Performance Clusters’ (New York Metro Area) efforts to prevent
accidents, injuries, and illnesses (Project Number 03YG011LH004). Our overall
objective was to determine whether the performance clusters were reducing the
number of accidents, injuries, and illnesses through prevention methods. This report
is the third in a series of 7 reports we will issue on accident prevention initiatives in
6 areas and 12 performance clusters. The seventh report will address issues with
nationwide impact and will provide the results of our best practice review of safety
issues.

The Long Island and New York Performance Clusters implemented prevention
initiatives that have the potential to become best practices for reducing accidents,
injuries, and illnesses. However, we could not determine whether the prevention
initiatives reduced the number of accidents, injuries, and illnesses in the Long Island
Performance Cluster. Conversely, the New York Performance Cluster had data
showing that the reduction in the number of accidents, injuries, and illnesses was the
result of the prevention initiatives.

The Long Island Performance Cluster implemented prevention initiatives to reduce
the number of accidents, injuries, and illnesses in a timely manner. We did not
evaluate the timeliness of prevention initiatives at the New York Performance Cluster
because the new initiatives were not in place during our audit scope, which began
September 8, 2001, and ended July 31, 2003. In addition, an opportunity for
improvement exists concerning safety staff in both performance clusters. Also, both
performance clusters were accumulating and analyzing accident, injury, and illness
data for prevention initiatives; however, the systems used are antiquated and will be
replaced. Finally, in all six facilities we visited in the Long Island and New York

   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Performance Clusters, the reporting processes facilitated accurate reporting of
accidents, injuries, and illnesses.

We have two recommendations to help management in the Long Island and
New York Performance Clusters improve their accident prevention initiatives.
Management agreed with the findings and recommendations and has initiatives
completed or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Chris Nicoloff, Director, Human Capital, at (214) 775-9114 or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Suzanne F. Medvidovich
    John A. Rapp
    DeWitt O. Harris
    Samuel M. Pulcrano
    Raymond T. Murphy
    Peter J. Bedard
    Joseph K. Moore
Efforts to Prevent Accidents, Injuries,                               HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                 TABLE OF CONTENTS
Executive Summary                                                          i

Part I

Introduction                                                              1

   Background 
                                                           1

   Objectives, Scope, and Methodology                                     2

   Prior Audit Coverage                                                   3

       Management’s Comments                                              3

       Evaluation of Management’s Comments                                3


Part II

Audit Results                                                             4


   Accident Prevention Initiatives                                        4


   Effectiveness of Prevention Initiatives                                5


   Timeliness of Prevention Initiatives                                   7

   Management’s Comments                                                  7

   Evaluation of Management’s Comments                                    8

    Opportunity for Improvement                                           8

    Recommendations                                                       9

    Management’s Comments                                                 9

    Evaluation of Management’s Comments                                  10 


   Accident Reporting Systems                                            10 


   Reporting Processes                                                   11 


   Additional Management’s Comments                                      12 


Appendix A. Abbreviations                                                13 


Appendix B. Scope and Methodology                                        14 


Appendix C. Statistical Sampling for Review of Accident Reporting 

            Processes in Long Island Performance Cluster                 16 


Appendix D. Statistical Sampling for Review of Accident Reporting 

            Processes in New York Performance Cluster                    17 


Appendix E. Management’s Comments                                        19 

Efforts to Prevent Accidents, Injuries,                                            HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                        EXECUTIVE SUMMARY
Introduction 	                 This report presents the results of our self-initiated audit
                               to determine whether the Long Island and New York
                               Performance Clusters, located in the New York Metro Area,
                               were reducing the number of accidents, injuries, and
                               illnesses through prevention initiatives.

Results in Brief 	             The Long Island and New York Performance Clusters’
                               prevention initiatives have the potential to become best
                               practices for reducing accidents, injuries, and illnesses.
                               However, we could not determine whether the prevention
                               initiatives reduced the number of accidents, injuries, and
                               illnesses in the Long Island Performance Cluster because
                               the measurement tools in place did not allow safety
                               personnel to monitor the effectiveness of specific initiatives.
                               Conversely, the New York Performance Cluster data
                               showed that the reduced number of accidents, injuries, and
                               illnesses was the result of the prevention initiatives.

                               The Long Island Performance Cluster implemented
                               prevention initiatives to reduce the number of accidents,
                               injuries, and illnesses in a timely manner. We did not
                               evaluate the timeliness of prevention initiatives at the
                               New York Performance Cluster because the new initiatives
                               were not in place during our audit scope, which began
                               September 8, 2001, and ended July 31, 2003. Both
                               performance clusters also need additional trained safety
                               staff.

                               In addition, both performance clusters were accumulating
                               and analyzing accident, injury, and illness data for
                               prevention initiatives; however, the Human Resource
                               Information System and the Risk Management Reporting
                               System are antiquated and will be replaced.

                               Postal Service Headquarters officials told us they are
                               addressing these issues at the headquarters level. We will
                               issue a summary report on the audit results for the six areas
                               visited. In that report, we may make recommendations to
                               the Senior Vice President, Human Resources, regarding the
                               measurement tools and data systems.




                                                 i
Efforts to Prevent Accidents, Injuries,                                              HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)


                               Finally, in all six facilities we visited in the Long Island and
                               New York Performance Clusters, reporting processes used
                               within the various functional areas facilitated the accurate
                               reporting of accidents, injuries, and illnesses.

Summary of 	                   We recommended that Postal Service management
Recommendations 	              reassess the adequacy of safety staffing resources. We
                               also recommended that management fill vacant positions
                               where appropriate, and/or consider other alternatives, such
                               as collateral duty assignments to existing staff.

Summary of                     Management agreed with the findings and
Management’s                   recommendations and has initiatives completed or planned
Comments                       addressing the issues in this report. Management did not
                               believe it was practical to increase safety staff, but stated
                               that adjustments to current operations management would
                               be effective. Management stated that one vacant safety
                               specialist position has been filled and other actions have
                               been taken to address safety staffing issues identified in the
                               report.

                               Management stated they appreciated the time the Office of
                               Inspector General took to discuss the review with the staff
                               on March 29, 2004. Management stated the meeting was
                               productive and that many of their concerns and proposed
                               modifications were reflected in the report. Management’s
                               comments, in their entirety, are included in Appendix E of
                               this report.

Overall Evaluation of          Management’s actions taken or planned are responsive to
Management’s                   the recommendations and should resolve the issues
Comments                       identified in this report.




                                                 ii
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                             INTRODUCTION
    Background                      With responsibility for more than 38,000 facilities, major
                                    transportation networks, and universal delivery, the Postal
                                    Service faces significant challenges in the areas of health
                                    and safety. These include making the health and safety
                                    of Postal Service employees a priority, managing the
                                    associated costs and lost productivity in operations, and
                                    responding when accidents and injuries have an
                                    unfavorable impact on the workplace. In addition, the
                                    Postal Service must address citations and monetary
                                    penalties for noncompliance with Occupational Safety
                                    and Health Administration (OSHA) standards.

                                    In its April 2002 Transformation Plan, the Postal Service
                                    stated that to meet its challenges and prepare for
                                    transformation, it would implement a number of strategies to
                                    “push business effectiveness and operational efficiency.”
                                    One of the strategies outlined was to reduce its workers’
                                    compensation costs. According to the Office of Workers’
                                    Compensation Programs’ (OWCP) chargeback1 reports, the
                                    Postal Service workers’ compensation costs have increased
                                    from $538 million to $822 million between chargeback
                                    years 1997 and 2003.2

                                    The following table is a comparison of Postal Service-wide
                                    accidents3 and OSHA injuries and illnesses4 for fiscal
                                    years (FYs) 2002 and 2003, which shows decreases in
                                    four categories. In addition, total expenses in FY 2003
                                    decreased significantly.




1
  The OWCP’s chargeback system is the mechanism by which the Department of Labor annually bills the cost of
compensation for work-related injuries and deaths to employing agencies.
2
  The OWCP’s chargeback year is July 1 through June 30.
3
  The Postal Service considers accidents as all reportable and nonreportable incidents including unadjudicated
occupational illness cases that cover certain kinds of injuries, illnesses, or damages. OSHA defines an accident
as any unplanned event that results in personal injury or property damage.
4
  OSHA defines an injury or illness as an abnormal condition or disorder. Injuries include, but are not limited to
cuts, fractures, sprains, or amputations. Illnesses include both acute and chronic illnesses such as, but not
limited to skin diseases, respiratory disorders, or poisoning.

                                                        1
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)


                                   Table 1. 	Comparison of Postal Service-wide Accidents and OSHA Injuries
                                             and Illnesses, FYs 2002 and 2003

                                            Category                   FY 2002                   FY 2003
                                    Motor Vehicle Accidents                      23,404                    23,100
                                    Non-Motor Vehicle                            99,195                    93,251
                                    Accidents
                                    OSHA Injuries                                51,630                    46,317
                                    OSHA Illnesses                                6,972                     5,550
                                    Total Accident, Injury, and          $1,652,449,865            $1,620,024,027
                                    Illness Expenses

                                   Source: Postal Service Web-Enabled Enterprise Information System (WebEIS).


                                   Postal Service Headquarters officials did not know
                                   specifically what was responsible for the reduction in
                                   accidents. They believed, however, it was the result of
                                   accident prevention initiatives.

                                   To determine why the number of accidents, injuries, and
                                   illnesses declined, we conducted a survey of the accident
                                   prevention programs in the Postal Service’s Western
                                   New York and Baltimore Performance Clusters located in
                                   the Northeast and Capital Metro Areas, respectively. Our
                                   results showed that accident prevention initiatives in each
                                   performance cluster were different and yielded contrasting
                                   results. We conducted this audit to determine whether
                                   similar situations existed in the Long Island and New York
                                   Performance Clusters. We did not audit the performance
                                   clusters’ overall safety programs. Our focus was on
                                   accident prevention initiatives at the locations we visited.

    Objectives, Scope,             Our overall objective was to determine whether the
    and Methodology                Long Island and New York Performance Clusters were
                                   reducing the number of accidents, injuries, and illnesses
                                   through prevention initiatives. Our four subobjectives were
                                   to determine whether:

                                       •	     The number of accidents and injuries was declining
                                              as a result of corrections to unsafe working
                                              conditions and practices.5

                                       •	     Corrective actions and/or prevention initiatives were
                                              made in a timely manner.



5
  Corrections to unsafe working conditions and practices were considered both corrective actions and prevention
initiatives. The purpose of this subobjective was to determine the effectiveness of prevention initiatives.

                                                         2
Efforts to Prevent Accidents, Injuries,                                           HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)


                                   •	 Data were being accumulated and analyzed for
                                      prevention initiatives.

                                   •	 Processes facilitated accurate reporting.

                               We discuss our scope and methodology in Appendix B.

Prior Audit Coverage 	 In the Long Island and New York Performance Clusters, we
                       did not identify any prior audits or reviews related to the
                       objectives of this audit.

Management’s                   Although management comments were not required
Comments                       regarding prior audit coverage, the Manager, New York
                               District stated the New York Metro Area has conducted
                               safety audits, and therefore the prior audit coverage section
                               of the report should be modified to state that no prior OIG
                               audits were identified.

Evaluation of                  Our statement concerning prior audits refers to performance
Management’s                   audits of prevention initiatives in the Long Island and
Comments                       New York Performance Clusters. The background section
                               of the report, page 2, contains a specific statement that we
                               did not audit the performance clusters’ overall safety
                               programs and that our focus was on accident prevention
                               initiatives at the locations we visited.




                                                 3
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                          AUDIT RESULTS
                                 The Long Island and New York Performance Clusters had
                                 implemented accident prevention initiatives. We could not
                                 determine, however, whether the prevention initiatives were
                                 reducing the number of accidents, injuries, and illnesses in
                                 the Long Island Performance Cluster. In the New York
                                 Performance Cluster, however, data showed the reduction
                                 in the number of accidents, injuries, and illnesses was the
                                 result of prevention initiatives.

                                 In addition, although the Long Island Performance Cluster
                                 implemented prevention initiatives to reduce the number of
                                 accidents, injuries, and illnesses in a timely manner, we
                                 noted an opportunity for improvement concerning safety
                                 staffing in four of the six facilities visited in the Long Island
                                 and New York Performance Clusters.

                                 Also, both performance clusters were accumulating and
                                 analyzing accident, injury, and illness data in two different
                                 automated systems; however, the systems are antiquated
                                 and will be replaced. Finally, the reporting processes used
                                 in both performance clusters within the various functional
                                 areas facilitated accurate reporting of accidents, injuries,
                                 and illnesses.

    Accident Prevention 	        The Long Island and New York Performance Clusters’
    Initiatives 	                prevention initiatives have the potential to become best
                                 practices in reducing accidents, injuries, and illnesses.
                                 These initiatives could also help other performance clusters
                                 enhance their safety programs. For example:

                                     •	    Both performance clusters established accident
                                           review committees that (1) evaluated corrective
                                           actions taken on accidents and the timeliness and
                                           quality of accident reporting and (2) identified
                                           systemic causes and corrective/prevention actions.

                                     •	    One Long Island facility, the Mid-Island Processing
                                           and Distribution Center, was a test facility for the
                                           Postal Service’s Ergonomic Risk Reduction
                                           Program.6 This program may help reduce mail
                                           handling and lifting injuries.

6
  The Postal Service developed the Ergonomic Risk Reduction Program in cooperation with OSHA, the American
Postal Workers Union, and the National Postal Mail Handlers Union to identify musculoskeletal disorders and
reduce ergonomic risk factors.

                                                    4
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)



    Effectiveness of             For FY 2002 through accounting period 12 in FY 2003, we
    Prevention Initiatives       could not determine whether the Long Island Performance
                                 Cluster was reducing the number of accidents, injuries, and
                                 illnesses, through prevention initiatives. We could not make
                                 this determination because the measurement tools in place
                                 did not allow safety personnel to:

                                      •   Track and monitor specific prevention initiatives.
                                      •   Document when initiatives were implemented.

                                 Some categories of accidents (repetitive motion, struck by
                                 objects, and industrial accidents) had decreased in the
                                 performance cluster; however, the reasons for the
                                 decreases could not be determined. District safety
                                 personnel told us they did not know the reasons because it
                                 was difficult to measure prevention initiatives when other
                                 factors, such as the weather, could influence the number of
                                 accidents.

                                 In the New York Performance Cluster, however, data
                                 showed a reduction in the number of accidents, injuries, and
                                 illnesses as a result of prevention initiatives. For example,
                                 the New York District Office, in the New York Performance
                                 Cluster, measured the effectiveness of its driver
                                 improvement training program, which indicated that
                                 90 percent of those receiving the training had no
                                 subsequent motor vehicle accidents.

                                 Although both performance clusters implemented accident
                                 prevention initiatives, their numbers and frequency rates
                                 varied for OSHA injuries and illnesses and motor vehicle
                                 accidents. From FYs 2002 to 2003, Long Island’s OSHA
                                 injury and illness and motor vehicle accident numbers and
                                 frequency rates7 increased. Conversely, New York’s OSHA
                                 injury and illness and motor vehicle accident frequency
                                 rates and numbers decreased for the same period. The
                                 following table illustrates these changes.




7
 OSHA injury and illness and motor vehicle accident frequency rates are the number of accidents per
100 employees for a specific period. These rates provide measurements that make accident data comparable
between large and small facilities.

                                                    5
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)


                                 Table 2. 	OSHA Injury and Illness and Motor Vehicle Accident Numbers
                                           and Frequency Rates in the Long Island and New York
                                           Performance Clusters for FYs 2002 and 2003

                                    Performance
                                      Cluster                Numbers          Average Frequency Rates
                                                        FY 2002    FY 2003      FY 2002      FY 2003
                                  Long Island
                                   OSHA Injury             780          924            8.44     10.42
                                    and Illness
                                   Motor Vehicle           228          259           11.64     13.84
                                  New York
                                   OSHA Injury             590          542            4.14      4.06
                                    and Illness
                                   Motor Vehicle           293          263           38.95     33.97

                                 Source: Postal Service WebEIS.


                                 Postal Service policy8 states that safety personnel
                                 were responsible for developing and monitoring a
                                 comprehensive safety and health program and analyzing
                                 accident, injury, and illness data so they could advise
                                 management on corrective actions. Policy9 also requires
                                 installations to develop methods to identify program
                                 needs for accident prevention. In addition, policy10
                                 requires supervisors to implement written programs and
                                 action plans, monitor employees’ safety performance,
                                 and prevent operational safety accidents.

                                 Without implementation dates and adequate
                                 measurement tools, the Postal Service does not have
                                 reasonable assurance that prevention initiatives help the
                                 performance clusters reduce the number of accidents,
                                 injuries, and illnesses. To follow prudent business
                                 practices, Postal Service managers should evaluate
                                 whether prevention initiatives are accomplishing their
                                 goal, and whether the resources expended are justified.

                                 Headquarters officials told us the safety tool kit that
                                 safety managers use to assess their safety programs is
                                 being modified to include trend line charts to track
                                 prevention initiatives. The officials said the tool kit would
                                 also be modified to include a field for managers to




8
  Employee and Labor Relations Manual 17.2, Section 813.31, February 2003.
9
  Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.
10
   Supervisor’s Safety Handbook, Handbook EL-801, Chapter 1, Section 1-1, May 2001.

                                                    6
Efforts to Prevent Accidents, Injuries,                                                     HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)


                                       enter the date they implement the initiatives. Therefore, we
                                       will address the need for tracking and monitoring initiatives
                                       in a separate report.11

 Timeliness of                         Timeliness of preventive initiatives was not evaluated at the
 Prevention Initiatives                New York Performance Cluster because new initiatives were
                                       not implemented during our audit scope, which began
                                       September 8, 2001, and ended July 31, 2003. However, the
                                       Long Island Performance Cluster implemented its accident
                                       prevention initiatives in a timely manner.

                                       Specifically, the Long Island Performance Cluster initiated
                                       action to “champion” poorly performing units immediately
                                       after they established a pattern of poor performance in
                                       March 2003. District management assigned safety staff to
                                       work with local management to conduct office visits and
                                       street observations, to identify unsafe work practices, and to
                                       provide guidance to postmasters on corrective
                                       action/prevention initiatives.

                                       Although initiatives were timely in Long Island, we noted an
                                       opportunity for improvement concerning safety staffing in
                                       four of the six facilities we visited in both the Long Island and
                                       New York Performance Clusters.

 Management’s                          Management stated that during the period September 8,
 Comments                              2001, through July 31, 2003, several prevention initiatives
                                       were in place. Management stated these changes were
                                       implemented before September 8, 2001, have proven their
                                       value over time, and the district continues to include them in
                                       their accident reduction plans. Management provided the
                                       following examples:

                                            •	   A weekly review of district accidents by a review
                                                 board.

                                            •	   An Accident Awareness Prevention Training 

                                                 Program. 


                                            •	   A Driver Improvement Training Program.

                                            •	   A Safety Captain Program.



11
     We will issue a summary report on the audit results for the six areas visited.

                                                            7
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                          •	   The establishment of safety and health committees
                                               for facilities with 50 or more employees.

 Evaluation of                       We agree that the Long Island Performance Cluster
 Management’s                        implemented prevention initiatives, and provided examples
 Comments                            in the Accident Prevention Initiatives section of the report.

 Opportunity for                     The Morgan Processing and Distribution Center, in the
 Improvement                         New York Performance Cluster, operates 24 hours a day,
                                     7 days a week, with over 4,000 employees and was
                                     authorized two safety specialists. However, only
                                     one specialist was assigned at the time of our visit.12
                                     The Franklin D. Roosevelt Station, with over
                                     1,000 employees, had no on-site safety specialist
                                     assigned and was supported by a safety specialist on the
                                     district staff, which, at the time of our visit, had one vacant
                                     safety position.

                                     In Long Island, the Mid-Island Processing and Distribution
                                     Center, with approximately 2,400 employees, had 1 safety
                                     specialist assigned. The Long Island Priority Mail
                                     Processing Center had no on-site safety specialists
                                     assigned. Although it had a smaller employee complement
                                     (approximately 400 employees), the district safety specialist
                                     who serviced the center also provided support for 40 other
                                     facilities within the performance cluster.

                                     According to the New York District Safety Manager and a
                                     New York Metro Area staff safety specialist, the staffing
                                     levels in both performance clusters were the result of past
                                     reorganizations, staff consolidations, and the difficulty
                                     experienced in recruiting and retaining qualified safety
                                     professionals in the high-cost metropolitan New York area.
                                     In addition, these officials said the downsizing environment
                                     within the Postal Service has discouraged hiring.

                                     Postal Service policy13 states that organizational levels must
                                     plan budgets and provide funds that support effective and
                                     comprehensive safety and health programs and sufficient
                                     personnel to properly implement and administer the
                                     program. Plants with 1,000 or more career employees are
                                     authorized a safety specialist position.14

12
     According to the New York District Safety Manager, vacancies had not been filled as of February 11, 2004.
13
  Employee and Labor Relations Manual 17.2, Section 818, February 2003.
14
  Senior Vice President, Human Resources’, letter to Area Human Resource Managers, dated September 16,
2003.

                                                         8
Efforts to Prevent Accidents, Injuries,                                             HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)



                               Additional staffing in these facilities could help to ensure the
                               continued timely implementation of accident prevention
                               initiatives.

Recommendations                To ensure the Long Island Performance Cluster continues to
                               implement, and the New York Performance Cluster
                               implements timely prevention initiatives, we recommend the
                               Managers, Long Island and New York Districts:

                                   1. Reassess the adequacy of safety staffing resources.

                                   2. Fill vacant positions, where appropriate, and/or
                                      consider other alternatives such as collateral duty
                                      assignments to existing staff.

Management’s                   Management agreed to both recommendations and has
Comments                       initiatives completed or planned addressing the issues in this
                               report. Management stated the Safety Specialist position
                               was filled at the Morgan Processing and Distribution Center
                               on April 17, 2004. Management also stated the District
                               Safety Specialist position was reposted in the New York
                               Metro Area on May 3, 2004. Further, management stated
                               the Facility Safety Coordinators have been trained and
                               perform annual inspections and evaluations of facilities with
                               less than 100 work years.

                               Management stated there was no disagreement with the
                               overall findings of the audit; however, there is a moderate
                               difference between management’s vision for ensuring the
                               effectiveness of prevention initiatives and the
                               recommendations presented. Specifically, management
                               stated the current level of safety staffing is adequate.
                               Management also said all managers must understand they
                               are accountable for ensuring that employees are provided
                               with a safe work environment. Further, management said
                               the role of the safety staff is providing operations managers
                               with the tools necessary for an effective safety program
                               within their work unit; and local managers must ensure the
                               program is implemented and everyone is held accountable.

                               Management also stated that for any program to be truly
                               effective, it must be managed daily. Management stated it
                               would not be practical to increase safety staff to sufficient
                               levels to accomplish this task, but it would be practical, with
                               only minor adjustments to current operations management
                               staff, to ensure the effective implementation of safety
                                                 9
Efforts to Prevent Accidents, Injuries,                                                            HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                  programs using the managers who work with employees
                                  every day. Management stated this process would also
                                  reinforce the principle of individual accountability for
                                  maintaining a safe work environment.

 Evaluation of                    Management’s actions taken or planned are responsive to
 Management’s                     our recommendation and should resolve the issues
 Comments                         identified in this finding.

 Accident Reporting               Both the Long Island and New York Performance Clusters
 Systems                          were accumulating and analyzing accident, injury, and
                                  illness data in the Human Resources Information Systems
                                  (HRIS) and the Risk Management Reporting System
                                  (RMRS). However, headquarters personnel told us these
                                  systems are antiquated and will be replaced.

                                  The Long Island Performance Cluster developed a training
                                  program, based on an analysis of HRIS data, for employees
                                  who had more than one accident. The Long Island
                                  Performance Cluster also analyzed data to identify units with
                                  poor performance, the types and causes of accidents at
                                  those units, and started a program of safety talks15
                                  performed by members of the district’s Joint Safety
                                  Committee.16

                                  The New York Performance Cluster developed an accident
                                  reduction plan focusing on accidents from slips, trips, falls,
                                  and lifting, based on an analysis of HRIS data. The
                                  Performance Cluster also developed an accident awareness
                                  prevention training course, which focused on prevention of
                                  accidents other than motor vehicle or natural event
                                  accidents. In addition, both performance clusters had
                                  accident review committees consisting of managers from the
                                  district staff that performed analyses of individual accident
                                  cases and accident trends on a regular basis.

                                  Postal Service policy17 requires the safety offices
                                  responsible for facilities where accidents occurred to enter
                                  accident report information into HRIS. Postal Service
                                  policy18 also states that the analysis of accidents and
                                  injuries was vital to effective accident prevention programs,

15
   Line supervisors were required to conduct safety talks at least once a week with their employee groups to
promote safety awareness.
16
   The Joint Safety Committee was established to review safety issues. Committee members were the district’s
safety manager, safety specialists, and labor union representatives.
17
   Employee and Labor Relations Manual 17.2, Section 821.123, February 2003.
18
   Employee and Labor Relations Manual 17.2, Section 821.31, February 2003.

                                                     10
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)


                                   and required management to use reports and statistical
                                   analyses to identify and eliminate the principal causes of
                                   accidents and hazardous conditions. Postal Service policy19
                                   further requires each business area that managed source
                                   data to identify an individual or organization that is
                                   responsible for developing standards and usage rules to
                                   ensure data integrity. The policy also stated that the
                                   standards and rules must ensure that data was accurate,
                                   available, usable, and consistent with the data location and
                                   other business considerations.

                                   According to the Headquarters Program Manager,
                                   Information Technology, Human Resource Portfolio, the
                                   Postal Service has developed the Injury Compensation
                                   Performance Analysis System and a component of it will
                                   replace HRIS and RMRS. The manager also stated that the
                                   system is scheduled for implementation late in calendar
                                   year 2004. We will address this issue in a separate report.

 Reporting Processes               In all six facilities we visited in the Long Island and New York
                                   Performance Clusters, the reporting processes used within
                                   the various functional areas facilitated accurate reporting of
                                   accidents, injuries, and illnesses.

                                   Both performance clusters had established safety
                                   committees to perform reviews of selected accidents to
                                   ensure the quality, accuracy, and timeliness of accident
                                   reporting. In addition, our tests of sample accident report20
                                   data from the HRIS, and sample accident report forms,
                                   indicated the accident reporting process was reasonably
                                   reliable (see Appendices C and D).

                                   Postal Service policy21 requires supervisors to fully complete
                                   the accident report, by including preventive action codes22
                                   and descriptions of accident prevention efforts. The policy
                                   also requires managers to review each accident report for
                                   accuracy and conduct a follow-up assessment to ensure that
                                   positive action had been taken to prevent similar



19
   Management Instruction 860-2003-2, Administrative Support, March 6, 2003.
20
   Postal Service Form 1769, Accident Report, was used to report accidents. The instructions on the form
required it to be completed for all accidents, regardless of the extent of injury or amount of damage. This
included all first aid injury cases both reportable and nonreportable.
21
   Employee and Labor Relations Manual 17.2, Section 821.13, February 2003.
22
   Preventive action codes were used to describe the action taken that would effectively eliminate or reduce the
accident cause(s) and prevent similar accidents.

                                                       11
Efforts to Prevent Accidents, Injuries,                                               HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)


                                   occurrences. In addition, supervisors and managers are
                                   required to sign the report as proof they had reviewed it.
                                   Policy23 also requires that the safety officer enter the
                                   accident report information into HRIS.

 Additional                        The Manager, New York District, stated he appreciated the
 Management’s                      time the Office of Inspector General took to discuss the
 Comments                          review with his staff on March 29, 2004. He stated the
                                   meeting was productive and that the report reflected many
                                   of the district’s concerns and proposed modifications.




23
     Employee and Labor Relations Manual 17.2, Section 821.12, February 2003.

                                                      12
Efforts to Prevent Accidents, Injuries,                        HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                          APPENDIX A. ABBREVIATIONS
e-FOIA         Electronic Freedom of Information Act
FOIA           Freedom of Information Act
FY             Fiscal Year
HRIS           Human Resources Information Systems
OSHA           Occupational Safety and Health Administration
OWCP           Office of Workers’ Compensation Programs
RMRS           Risk Management Reporting System
WebEIS         Web-Enabled Enterprise Information System




                                                 13
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                   APPENDIX B. SCOPE AND METHODOLOGY
Our performance cluster selections were based on the lowest and highest combined OSHA injury and
illness rates and accident frequency rates from FY 200224 through accounting period25 7 in FY 2003.26
The New York average total OSHA injury and illness rates and accident frequency rates were
4.23 percent and 9.69 percent, respectively. The Long Island average total OSHA injury and illness
rates and accident frequency rates were 9.39 percent and 17.11 percent, respectively. The average
total accident frequency rate of 9.69 percent in the New York Performance Cluster meant that out of
every 100 employees, an average of 9.69 had an accident for that period.

We selected three facilities at each performance cluster based on size and type (for example, airport
mail center, processing and distribution center, and main post office). The New York facilities we
visited were the Morgan Processing and Distribution Center, the Franklin D. Roosevelt Station, and
the Grand Central Station. The Long Island facilities we visited were the Huntington Station, the
Mid-Island Processing and Distribution Center, and the Long Island Priority Mail Processing Center.

To accomplish our objectives, we reviewed applicable federal laws and Postal Service and OSHA
policies and procedures related to accident and injury prevention.

To verify whether the number of accidents and injuries was declining as a result of corrections to
unsafe working conditions and practices, we obtained data by accident category and code (slips, trips
and falls, lifting, dog bites, repetitive motion, striking against, struck by objects, and motor vehicles)
for each performance cluster. In addition, we obtained accident numbers and accident frequency rate
data from the Postal Service WebEIS for FYs 2002 and 2003. We also obtained from RMRS the
accident frequency rates and OSHA injury and illness rates for FY 2002 and the first eight accounting
periods in FY 2003.27 We reviewed data from both WebEIS and RMRS to determine whether
downward trends indicated a reduction in accidents, injuries, and illnesses.

To determine whether corrective actions and prevention initiatives were made in a timely manner to
reduce the number of accidents, injuries, and illnesses, we reviewed Postal Service policy to learn
whether a national or other standard policy existed that addressed how unsafe working conditions
and practices should be corrected in a timely manner. We reviewed documentation for corrective
actions and prevention initiatives implemented from FY 2002 through accounting period 1228 in
FY 2003. Timeliness of preventive initiatives could not be evaluated at the New York Performance
Cluster because new initiatives were not implemented during our audit scope.

To determine whether accident, injury, and illness data were accumulated and analyzed for
prevention initiatives, we analyzed accidents, injuries, training documents, and workplace inspection
data for sources and locations of accidents and jobs with high occurrences of accidents. We also
analyzed accident and injury trends to determine whether a pattern of accidents with common causes
could be identified in order to prevent future occurrences. We reviewed action plans and Program
Evaluation Guide data that were accumulated and analyzed for prevention initiatives during FYs 2002
and 2003.

To determine whether processes used within the various functional areas facilitated accurate
reporting of accidents, injuries and illnesses, we interviewed human resources, safety and health
program personnel, and management at the area, performance cluster, and facility levels. We

24
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002.
25
   An accounting period is defined as a four-week period that forms one-thirteenth of the Postal Service fiscal
year.
26
   The first seven accounting periods for FY 2003, began September 7, 2002, and ended March 21, 2003. The
FY 2003 period for the Postal Service began September 7, 2002, and ended September 5, 2003. However, the
Postal Service transitioned its financial reporting system from accounting periods to monthly reporting periods on
October 1, 2003. The transition period began September 6, 2003, and ended September 30, 2003.
27
   The first eight accounting periods for FY 2003, began September 7, 2002, and ended April 18, 2003.
28
   The first 12 accounting periods for FY 2003, began September 7, 2002, and ended July 31, 2003.

                                                        14
Efforts to Prevent Accidents, Injuries,                                                      HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

obtained information related to accident prevention such as resources, training, accident and hazard
reporting, safety talks, and internal controls. In addition, we selected two statistical samples of
accidents, injuries, and illnesses entered into HRIS for FY 2002 and the first eight accounting periods
in FY 2003. We reviewed a sample of accident reports for accuracy and completeness; and reviewed
a sample of accidents from HRIS to determine whether the information on the accident reports was
entered accurately. (See Appendices C and D for a discussion of the sampling methodologies used.)

This audit was conducted from May 2003 through July 2004 in accordance with generally accepted
government auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our conclusions and observations with
appropriate management officials and included their comments, where appropriate. We believe the
computer-generated data was sufficiently reliable to support the opinion, conclusions, and
recommendations in this report.




                                                  15
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                             APPENDIX C

STATISTICAL SAMPLING FOR REVIEW OF ACCIDENT REPORTING
   PROCESSES IN LONG ISLAND PERFORMANCE CLUSTER
Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified two-stage random
sample. Existence of the appropriate supporting accident report forms was also tested using the
sample.

Definition of the Audit Universe

The audit universe consisted of 1,314 accidents, according to the HRIS database, for all of FY 2002
through accounting period 8 of FY 2003. The universe was obtained on site by requesting a HRIS
data printout from the safety manager responsible for the accident and injury prevention program.

The accident report forms on file were stored in folders by accounting period and location. There
were 125 folders.

Sample Design and Modifications

At the first stage of selection, we selected 30 folders randomly using the “randbetween” function in
Microsoft Excel29 to assign random numbers to the individuals on the universe listing. At the
second stage, the audit team selected individual accident report forms within folders, using interval
sampling.

To test the completeness and accuracy of the database, we tested six attributes:

     •   Was the accident shown on the accident report form listed in the database?
     •   Did the accident control number in the database agree with that on the form?
     •   Did the accounting period in the database agree with the accident date on the form?
     •   Did the date the data was entered in the database agree with the date entered on the form?
     •   Did the listing of the involved person(s) in the database agree with that on the form?
     •   Did the accident description in the database agree with that on the form?

For the completeness of the accident report forms, we tested two additional attributes:

     •   Was the preventive action code on the form?
     •   Was the preventive action on the form?

Additional Analysis and Results

We analyzed the sample results and observed low error rates for each attribute. While this analysis
does not constitute a statistical projection, we believe the low error rates observed in the records
reviewed support the audit team opinion that there is little likelihood of a major problem with the data
in the files or in the database.



29
 Microsoft Excel is a spreadsheet program from the Microsoft Office suite of productivity tools for Windows and
Macintosh.




                                                      16
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

                                          APPENDIX D

STATISTICAL SAMPLING FOR REVIEW OF ACCIDENT REPORTING
     PROCESSES IN NEW YORK PERFORMANCE CLUSTER
Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in HRIS. In support of this objective, the audit team employed a stratified random sample. Existence
of the appropriate supporting accident report forms was also tested using the sample.

Definition of the Audit Universe

The audit universe consisted of 1,967 accidents, according to the HRIS database, for all of FY 2002
through accounting period 8 of FY 2003. The accident reports were stored at the Morgan Processing
and Distribution Center and the JA Farley Building. The universe was obtained on-site by requesting
a HRIS data printout from the safety manager responsible for the accident and injury prevention
program.

The forms on file for the JA Farley Building were stored in folders by station and accounting period.
There were 74 folders, representing 34 installations in FY 2002 and 40 installations in FY 2003.

Sample Design and Modifications

We stratified the Morgan Processing and Distribution Center accident report forms into two strata by
fiscal year. The audit team selected individual accident report forms on-site, using interval sampling
within each stratum for the selection of the forms: for FY 2002, selecting every seventh form starting
with the first form; and for FY 2003, selecting every sixth form starting with the third form. The
interval sampling yielded sample sizes of 53 and 61 forms for the 2 strata, respectively.

The audit team selected individual accident report forms on-site, within each folder at the JA Farley
Building, using interval sampling.

The interval sample yielded a total sample size of 625 accident reports for the JA Farley Building.

The combined sample size for the Morgan Processing and Distribution Center and the JA Farley
Building was 739 accident report forms.

To test the completeness and accuracy of the database, we tested six attributes:

    •   Was the accident shown on the accident report form listed in the database?
    •   Did the accident control number in the database agree with that on the form?
    •   Did the accounting period in the database agree with the accident date on the form?
    •   Did the listing of the involved person(s) in the database agree with that on the form?
    •   Did the accident description in the database agree with that on the form?
    •   Was the accident listed in HRIS?

For the completeness of the accident report forms, we tested two additional attributes:

    •   Was the preventive action code on the form?
    •   Was the preventive action on the form?




                                                  17
Efforts to Prevent Accidents, Injuries,                                                        HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)

Additional Analysis and Results

We analyzed the sample results and observed low error rates for each attribute. While this analysis
does not constitute a statistical projection, we believe the low error rates observed in the records
reviewed support the audit team opinion that there is little likelihood of a major problem with the data
in the files or in the database.




                                                   18
Efforts to Prevent Accidents, Injuries,               HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)



                APPENDIX E. MANAGEMENT’S COMMENTS




                                                 19
Efforts to Prevent Accidents, Injuries,               HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)




                                                 20
Efforts to Prevent Accidents, Injuries,               HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)




                                                 21
Efforts to Prevent Accidents, Injuries,               HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)




                                                 22
Efforts to Prevent Accidents, Injuries,               HM-AR-04-008
 and Illnesses in the Long Island and New York
 Performance Clusters (New York Metro Area)




                                                 23
